HHS/OIG-Audit--"Audit of Six Ulcer Treatment Drugs Reimbursed Under the Indiana Medicaid Prescription Drug Program, (A-06-92-00008)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Six Ulcer Treatment Drugs Reimbursed Under the Illinois Medicaid Prescription
Drug Program," (A-06-92-00008)
September 29, 1992
Complete
Text of Report is available in PDF format (1.08 MB). Copies can also be obtained
by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of six ulcer treatment drugs
reimbursed under the Illinois Medicaid prescription drug program. The Omnibus Budget
Reconciliation Act of 1990 (OBRA '90) requires the State Medicaid agencies to operate
drug use review programs on an ongoing basis. One of the standards recognized by
OBRA '90 is the manufacturers' recommended dosages. We concluded that the Illinois
Department of Public Aid (State agency) did not have any restrictions pertaining
to the manufacturers' recommended dosages for ulcer treatment drugs. Accordingly,
our review showed that about $5.82 million (Federal share $2.91 million) in cost
savings could have been realized for Calendar Year 1990 had the State agency limited
payment for these drugs to the amount needed to pay for the manufacturers' recommended
dosages.